Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grants
to the City of Murfreesboro, Tennessee
Parks and Recreation Department

GR-40-02-007


July, 2002

Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of two Universal Hiring Program (UHP) grants awarded by the Office of Community Oriented Policing Services (COPS) to the city of Murfreesboro, Tennessee Parks and Recreation Department (grantee).  The purpose of the grants was to enhance community policing.  The grantee was awarded a total of $582,831 to hire eight police officers.1
We reviewed the grantee's compliance with six essential grant conditions and determined that the grantee was generally in compliance with the conditions of:  budgeting for officers, source of local matching funds, and community policing activities.  However, we found weaknesses in the areas of hiring of officers, retention of officer positions, and reimbursement requests as noted below.2
The grantee's agreement (hereafter referred to as contract) with the Murfreesboro Police Department (MPD) to furnish officers to patrol park facilities did not agree with the terms of the grants.

The grantee was awarded two grants to fund a total of 8 officer positions, but the grantee's contract with the MPD was only for 4 full-time officers and 2 part-time officers to patrol park facilities.
The grantee's contract with the MPD was for a 3-year period.  However, grant recipients are to retain previously grant-funded positions for one full budget cycle after the grant funding period has ended, which means the grantee's contract with the MPD should have been for at least a 4-year period (i.e., the 3-year funding period and an additional 1-year period for retention).

The grantee could not quantify its pre-grant level of policing services.3  Grantee and MPD officials indicated that the amount of service provided to the parks by the MPD unrelated to the COPS grants was minimal, but the officials were unable to substantiate such verbal assertions with supporting documentation.
We also found that the grantee claimed and received reimbursement for $32,886 in excess of the federal share awarded for the initial UHP grant.
These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.


Footnotes
Initially, COPS awarded the grantee a UHP grant for $315,717 to hire four full-time and two part-time officers.  On August 3, 1999, the grantee requested a modification to its original UHP award to reflect only four full-time officers.  Accordingly, COPS reduced the award amount to $282,831.  The grantee was subsequently awarded a second, or supplemental, UHP grant in the amount of $279,780 to hire another four full-time officers, which COPS increased by $20,220 for a total of $300,000 for the supplemental UHP grant.

Our reporting of the Murfreesboro Parks and Recreation Department's hiring and retention of officer positions is limited in this report because the grantee contracted for the hiring of police officers with the Murfreesboro Police Department, which also received COPS grants.  Therefore, we conducted an audit of the Murfreesboro Police Department, the results of which will be reported separately.  Our report on the Murfreesboro Police Department will include further details on the results of our testing of the hiring and retention of officer positions for the Parks and Recreation Department. 
COPS grants are intended to increase the grantee's pre-grant level of community policing activities.